      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                           Washington, D.C. 20201




October 9, 2009

TO:            Patricia E. Brown
               Acting Director
               Office of Head Start


FROM:          /Lori S. Pilcher/
               Assistant Inspector for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at La Peninsula Community Organization, Inc.,
               for the Period February 1, 2008, Through January 31, 2009 (A-02-09-02012)


The attached final report provides the results of our limited scope review of La Peninsula
Community Organization, Inc. (La Pen), for the period February 1, 2008, through January 31,
2009. This review was requested by the Administration for Children and Families, Office of
Head Start as part of its overall assessment of Head Start grantees that have applied for
additional funding under the Recovery Act.

The Recovery Act was signed into law by President Obama on February 17, 2009. The
Recovery Act includes measures to modernize our nation’s infrastructure, enhance energy
independence, expand educational opportunities, preserve and improve affordable health care,
provide tax relief, and protect those in greatest need.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. All Federal agencies and departments receiving Recovery Act funds must
maintain strong internal controls and implement oversight mechanisms and other approaches to
meet the accountability objectives of the Recovery Act.

The objectives of our limited scope review were to determine whether: (1) La Pen is fiscally
viable, (2) La Pen’s financial management system adequately managed and accounted for
Federal funds, and (3) La Pen fiscal personnel are bonded.

Based on its current financial condition, La Pen can not ensure the continuing viability of the
organization as a going concern unless it restructures its debt or receives additional funding.
Also, La Pen’s financial management system does not adequately manage and account for
Federal funds. As a result, Federal Head Start funds were used to pay for nonfederal
Page 2 – Patricia E. Brown


expenditures, accounting records were not properly maintained and reconciled, budget controls
were lacking, and financial reports included inaccurate data. Lastly, La Pen’s fiscal personnel
are bonded.

In written comments on our draft report, La Pen stated that it has struggled to meet its fiscal
obligations and agreed with most of our findings regarding its financial management system. In
addition, La Pen indicated steps it has taken to adequately account for Federal funds.

In determining whether La Pen should be awarded additional Head Start and Recovery Act grant
funding, we recommend that ACF consider the information presented in this report in assessing
La Pen’s financial condition.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-02-09-02012 in all correspondence.


Attachment
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




RESULTS OF LIMITED SCOPE REVIEW
  AT LA PENINSULA COMMUNITY
ORGANIZATION, INC., FOR THE PERIOD
   FEBRUARY 1, 2008, THROUGH
        JANUARY 31, 2009




                        Daniel R. Levinson
                         Inspector General

                          October 2009
                          A-02-09-02012
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program. The Head Start program provides grants to local public and private non-profit and for-
profit agencies to provide comprehensive child development services to economically
disadvantaged children and families.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly five percent cost-of-living increase and bolster
training and technical assistance activities.

La Peninsula Community Organization, Inc. (La Pen), a non-profit agency, operates a Head Start
program that provides education, health, and social services to low-income pre-school children
and their families at locations throughout The Bronx, New York. La Pen also operates food and
pre-kindergarten programs. La Pen is currently utilizing a new facility, for which it received a
$3.2 million construction loan, and has applied to convert the loan to a $3.6 million mortgage.

La Pen is funded primarily through Federal and local government grants. During fiscal year
(FY) 2009 (February 1, 2008, through January 31, 2009), ACF directly provided grant funds to
La Pen totaling $1,363,946. La Pen also received ACF pass-through funding for its Head Start
program from the New York City Administration for Children’s Services totaling $4,926,968.

La Pen received Recovery Act grant funding for FY 2010 totaling $69,917 for cost-of-living
increases and quality improvement.

OBJECTIVES

The objectives of our limited scope review were to determine whether: (1) La Pen is fiscally
viable, (2) La Pen’s financial management system adequately managed and accounted for
Federal funds, and (3) La Pen fiscal personnel are bonded.

SUMMARY OF FINDINGS

Based on its current financial condition, La Pen can not ensure the continuing viability of the
organization as a going concern unless it restructures its debt or receives additional funding.
Also, La Pen’s financial management system does not adequately manage and account for
Federal funds. As a result, Federal Head Start funds were used to pay for nonfederal



                                                 i
expenditures, accounting records were not properly maintained and reconciled, budget controls
were lacking, and financial reports included inaccurate data. Lastly, La Pen’s fiscal personnel
are bonded.

RECOMMENDATION

In determining whether La Pen should be awarded additional Head Start and Recovery Act grant
funding, we recommend that ACF consider the information presented in this report in assessing
La Pen’s financial condition.

LA PENINSULA COMMUNITY ORGANIZATION, INC., COMMENTS

In written comments on our draft report, La Pen stated that it has struggled to meet its fiscal
obligations and agreed with most of our findings regarding its financial management system. In
addition, La Pen indicated steps it has taken to adequately account for Federal funds. La Pen’s
comments are included in their entirety as the appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                 Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Head Start Program...............................................................................................1
              La Peninsula Community Organization, Inc.........................................................1
              Requirements for Federal Grantees ......................................................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY..........................................................2
               Objectives .............................................................................................................2
               Scope.....................................................................................................................2
               Methodology .........................................................................................................2

FINDINGS AND RECOMMENDATION................................................................................3

          LA PEN IS NOT FINANCIALLY VIABLE ...................................................................3
               Short Term Liquidity ............................................................................................3
               Long Term Stability..............................................................................................4

          INADEQUATE FINANCIAL MANAGEMENT SYSTEM ...........................................4
               Unallowable Fund Transfer ..................................................................................4
               No Recognition of Accounts Payable for Unpaid Expenses ................................4
               Accounting Records Not Properly Reconciled .....................................................4
               No Corrective Actions for Prior Year Findings....................................................4
               Inaccurate Financial Status Report .......................................................................5
               Fiscal Year 2009 Single Audit Findings...............................................................5

          LA PEN’S FISCAL PERSONNEL ARE BONDED........................................................6

          CONCLUSION.................................................................................................................6

          RECOMMENDATION ....................................................................................................6

          LA PENINSULA COMMUNITY ORGANIZATION, INC. COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................6
               Financial Viability ................................................................................................6
               Financial Management System .............................................................................7

APPENDIX

          LA PENINSULA COMMUNITY ORGANIZATION, INC. COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Head Start Program

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program.

The Head Start program provides grants to local public and private non-profit and for-profit
agencies to provide comprehensive child development services to economically disadvantaged
children and families, with a special focus on helping preschoolers develop the early reading and
math skills needed to be successful in school. Head Start programs engage parents in their
children’s learning and emphasize parental involvement in the administration of local Head Start
programs.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly five percent cost-of-living increase and bolster
training and technical assistance activities.

La Peninsula Community Organization, Inc.

La Peninsula Community Organization, Inc. (La Pen), a non-profit agency, operates a Head Start
program that provides education, health, and social services to low-income pre-school children
and their families at locations throughout The Bronx, New York. La Pen also operates food and
pre-kindergarten programs. La Pen is currently utilizing a new facility, for which it received a
$3.2 million construction loan, and has applied to convert the loan to a $3.6 million mortgage.

La Pen is funded primarily through Federal and local government grants. During fiscal year
(FY) 2009 (February 1, 2008, through January 31, 2009), ACF directly provided grant funds to
La Pen totaling $1,363,946. La Pen also received ACF pass-through funding for its Head Start
program from the New York City Administration for Children’s Services totaling $4,926,968.

La Pen received Recovery Act grant funding for FY 2010 totaling $69,917 for cost-of-living
increases and quality improvement.




                                                 1
Requirements for Federal Grantees

Pursuant to 45 CFR § 74.21, grantees are required to maintain financial management systems
that contain written procedures for determining the reasonableness, allocability, and allowability
of costs. Grantees must maintain accounting records that are supported by source documentation
and must maintain financial systems that provide for accurate and complete reporting of grant
related financial data. Grantees are also required to compare outlays with budget amounts for
each award and may use grant funds only for authorized purposes. In addition, pursuant to
45 CFR § 1301.11, Head Start agencies shall make arrangements for bonding officials and
employees authorized to disburse program funds.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The objectives of our limited scope review were to determine whether: (1) La Pen is fiscally
viable, (2) La Pen’s financial management system adequately managed and accounted for
Federal funds, and (3) La Pen fiscal personnel are bonded.

Scope

This review was performed based upon a limited scope request from ACF, dated April 13, 2009.
Therefore, we did not perform an overall assessment of La Pen’s internal control structure.
Rather, we reviewed only the internal controls that pertained directly to our objectives. Our
review period was FY 2009.

We performed our fieldwork at La Pen’s administrative office in The Bronx, New York, during
April and May 2009.

Methodology

To accomplish our objectives, we;

       reviewed relevant Federal laws, regulations, and guidance;

       reviewed La Pen’s fiscal procedures related to accounting documentation and preparation
        of financial reports;

       obtained Federal and local government grant award documentation to determine La Pen’s
        Federal funding;

       reviewed La Pen’s financial statements for FYs 2007 through 2009; 1


1
 We reviewed La Pen’s audited financial statements for FYs 2007 and 2008 as well as La Pen’s FY 2009 financial
statement, which had not been finalized during our fieldwork. La Pen’s FY 2009 draft financial statement included
a draft OMB Circular A-133 Single Audit Report.


                                                        2
      reviewed La Pen’s expense accounts, monthly financial statements, and SF-269,
       Financial Status Reports, submitted to ACF;

      performed liquidity and stability analyses of La Pen’s finances;

      interviewed officials at La Pen’s bank to determine the status of La Pen’s construction
       loan;

      obtained and reviewed La Pen’s loan agreement and property appraisal report; and

      reviewed La Pen’s bond coverage.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATION

Based on its current financial condition, La Pen can not ensure the continuing viability of the
organization unless it restructures its debt or receives additional funding. Also, La Pen’s
financial management system does not adequately manage and account for Federal funds. As a
result, Federal Head Start funds were used to pay for nonfederal expenditures, accounting
records were not properly maintained and reconciled, budget controls were lacking, and financial
reports included inaccurate data. Lastly, La Pen’s fiscal personnel are bonded.

LA PENINSULA COMMUNITY ORGANIZATION, INC., IS NOT
FINANCIALLY VIABLE

To determine whether La Pen is financially viable, we performed liquidity and stability analyses
of La Pen’s finances for FY 2009.

Short Term Liquidity

We performed a liquidity analysis–the relationship of current assets to current liabilities–to
determine La Pen’s ability to pay its current obligations. Generally, for an organization to be
considered fiscally sound, its current assets should be valued more than its current liabilities.
Our analysis indicated that La Pen’s current liabilities exceeded its current assets (the current
assets-to-liabilities ratio was 0.91). In addition, La Pen’s working capital–current assets
($1,913,764) less current liabilities ($2,112,449)–was negative (-$198,685). Positive working
capital is a common measure of an organization’s liquidity, efficiency, and overall health.
Negative working capital shows the inverse. It appears that, because of its inadequate short term
liquidity, La Pen has been paying only the interest portion of its $3.2 million construction loan
because it cannot afford to also pay the principal portion of the loan.



                                                3
Long Term Stability

We performed a debt ratio analysis which is used to determine the overall financial risk of the
organization. The debt ratio is an organization’s total debt divided by total assets. This will tell
you how much the company relies on debt to finance assets. When calculating this ratio, both
current and non-current debt and assets are considered. In general, the lower the company's
reliance on debt for asset formation, the less risky the company is since excessive debt can lead
to a very heavy interest and principal repayment burden. La Pen’s total debt (liabilities) was
$5,323,783 and its total assets were $5,393,551. Thus, 99 percent of La Pen’s assets were
financed through debt.

To ensure the continuing viability of the organization as a going concern, La Pen must
restructure its debt or seek additional funding from the Federal government or other sources.

INADEQUATE FINANCIAL MANAGEMENT SYSTEM

Unallowable Fund Transfer

La Pen improperly used Head Start funds to pay for expenditures not approved by ACF for
Federal reimbursement. Specifically, La Pen transferred $351,853 from its Head Start account to
pay off a lien applied to La Pen’s new facility by a building subcontractor.

No Recognition of Accounts Payable for Unpaid Expenses

La Pen had outstanding obligations (e.g. telephone, utilities, and supplies) that were not
recognized as accounts payable in its general ledger. As a result, La Pen’s stated financial
position was inaccurate.

Accounting Records Not Properly Reconciled

La Pen did not reconcile its payroll banking account to its general ledger. Also, La Pen did not
reconcile its payroll tax liability, as reported on its Internal Revenue Service Form-941,
Employer’s Quarterly Federal Tax Return, to its general ledger. Finally, La Pen did not
reconcile the supporting expenditure summary for each drawdown requested from the
Department of Health and Human Services’ electronic payment system to its general ledger. We
attempted to reconcile the payroll account, payroll, taxes, and the expenditure summaries
supporting the drawdowns to the general ledger but were not successful. Without a proper
reconciliation, La Pen cannot ensure that correct information is reported on its financial status
reports.

No Corrective Actions for Prior Year Findings

La Pen did not take appropriate action to correct two findings reported in its FY 2007 and
FY 2008 financial statement audits.




                                                  4
The first finding related to La Pen not having paid its obligations within 90 days, as required by
45 CFR § 74.71(b). We determined that La Pen had not corrected this condition during
FY 2009. For example, La Pen had an unpaid balance of $13,424 for legal services incurred
during FYs 2008 and 2009.

The second finding related to La Pen not having appropriate budgetary control measures over its
expenditures. We determined that La Pen had not corrected this condition during FY 2009,
resulting in expenses that exceeded its FY 2009 budget by $47,742.

Inaccurate Financial Status Report

La Pen could not support the Federal share of net outlays, totaling $1,395,943, reported on its
FY 2009 SF-269, Financial Status Report to ACF. This amount should represent expenditures in
La Pen’s general ledger. However, these expenditures could not be traced from the general
ledger to the supporting documentation that La Pen provided ACF as the basis for its
drawdowns. We also attempted to trace $67,000 in expenditures for which La Pen requested
Federal funds in January 2008 to the actual vendor payments without success.

Fiscal Year 2009 Single Audit Findings

The independent public accountants which conducted La Pen’s FY 2009 audit included a
qualified opinion in its draft OMB Circular A-133 Single Audit Report. The accountants
identified 13 significant deficiencies, 11 of which were determined to be material weaknesses.
For example, the accountants reported that:

      cash transactions from the bank accounts were not completely recorded;

      La Pen issued checks written out for more than the actual balances that La Pen had in its
       bank account, putting the organization at risk of incurring penalties;

      cash transactions involving vendor payments through cash accounts were not recorded in
       La Pen’s books;

      La Pen’s books did not agree with its monthly expense reports;

      accounts payables were not properly monitored; and

      prior period findings, such as the organization not paying its vendors in a timely manner,
       were not corrected.




                                                 5
LA PENINSULA COMMUNITY ORGANIZATION, INC., FISCAL PERSONNEL
ARE BONDED

Pursuant to 45 CFR § 1301.11, Head Start agencies shall make arrangements for bonding
officials and employees authorized to disburse program funds. We determined that La Pen’s
fiscal personnel were bonded, effective November 2008. La Pen’s policy covers the period
November 25, 2008, through November 25, 2009. 2 Under the plan, fiscal personnel have the
following coverage:

           Employee Theft & Client Coverage                    $100,000
           ERISA Fidelity                                      $100,000
           Forgery or Alteration                               $50,000
           Inside the Premises                                 $50,000
           Computer Fraud & Funds Transfer Fraud               $50,000

CONCLUSION

Based on its current financial condition, La Pen can not ensure the continuing viability of the
organization as a going concern unless it restructures its debt or receives additional funding.
Also, La Pen’s financial management system does not adequately manage and account for
Federal funds. As a result, Federal Head Start funds were used to pay for nonfederal
expenditures, accounting records were not properly maintained and reconciled, budget controls
were lacking, and financial reports included inaccurate data. Lastly, La Pen’s fiscal personnel
are bonded.

RECOMMENDATION

In determining whether La Pen should be awarded additional Head Start and Recovery Act grant
funding, we recommend that ACF consider the information presented in this report in assessing
La Pen’s financial viability.

LA PENINSULA COMMUNITY ORGANIZATION, INC., COMMENTS AND OFFICE
OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, La Pen stated that it has struggled to meet its fiscal
obligations and agreed with most of our findings regarding its financial management system. In
addition, La Pen indicated steps it has taken to adequately account for Federal funds. La Pen’s
comments are included in their entirety as the appendix.

Financial Viability

La Peninsula Community Organization, Inc., Comments

Regarding its financial viability, La Pen stated that it will be able to carry its debt service upon
conversion of its construction loan to a mortgage by charging rent to various programs. La Pen
2
    La Pen is covered through the Philadelphia Insurance Companies’ “Crime Protection Plus” policy.


                                                          6
also stated that it was uncertain as to the validity of our information because our liquidity and
stability analyses were based on figures from its draft financial statement.

Office of Inspector General Response

There is no data available to evaluate the financial impact of La Pen’s proposal to convert its
construction loan to mortgage or to charge rent to programs that utilize space at La Pen’s new
facility. Therefore, we could not verify whether La Pen will be able to carry its debt service
upon conversion of its construction loan to a mortgage.

Financial Management System

La Peninsula Community Organization, Inc., Comments

La Pen agreed with our first four findings related to its financial management system and
indicated that it had taken corrective actions, including the implementation of new fiscal
procedures, to ensure that its financial management system adequately accounts for Federal
funds.

La Pen disagreed with our finding that it submitted inaccurate financial status reports to ACF. In
addition, La Pen stated that it could not locate payment records for drawdowns made in January
2008. La Pen indicated that the amount reported on its FY 2009 financial status report was taken
from its profit and loss statement. Further, La Pen stated that it ascertained that Federal funds
received were used to pay expenses earmarked in its drawdown requests.

In addition, La Pen disagreed with our finding concerning its FY 2009 OMB Circular A-133
Single Audit Report. La Pen stated that 9 of the 13 deficiencies noted in its draft Single Audit
Report “will be deleted” from its accountants’ final Single Audit Report and requested that our
finding be removed from the report. La Pen stated that it will provide its accountants with
appropriate documentation.

Office of Inspector General Response

We did not verify whether La Pen’s new fiscal procedures will ensure that its financial
management system adequately accounts for Federal funds.

Regarding La Pen’s submission of inaccurate financial status reports to ACF, we note that our
finding did not address the recording of drawdowns. Rather, our finding related to the support
for the expenditures that were the basis of La Pen’s drawdowns. La Pen’s profit and loss
statement was based on its general ledger. Therefore, its FY 2009 SF-269 did not accurately
reflect all of its incurred expenses.

Regarding La Pen’s Single Audit Report, we have no reason to believe that La Pen’s final
financial statement will be materially different from its draft financial statement, which we used
to perform stability and liquidity analyses. Officials from La Pen’s accounting firm indicated




                                                 7
that, as of September 25, 2009, 5 findings in La Pen’s draft FY 2009 Single Audit Report have
been deleted.




                                               8
APPENDIX 

                                                                                                         Pagelof6

APPENDIX: LA PENINSULA COMMUNITY ORGANIZATION, INC. COMMENTS 




                              La 'PeninsUla Community Organization, Inc.
                                                   Head Start 'Program
                                             o.,nnis Campbc U, Sponsoring Boaro Chairperson
                                                    Renee Sutton, Executive Du"clor
                                                                 Main Office
                                               711 Manida SIr«t Bronx, New York 10474
      BoArd ofDiml...                           Tel. (718) 542 ­ 1161 Fax; (718) 542- 8230
      Dulstril""'"
        VI«   0..,•
      •-nK<5l'iEIN,d .
        T-..""
      Sb<pptfd .'>l. DtLkIe
                                September 15, 2009
        ~"
      Jostpbl•• OIin
        _nlMb.                  Mr. James P. Eden
                                Regional Inspector General for Audit Services
      ONtl... So oHoco­
       1:100'" Mb< 	            Department of Health and Human Services
      DtI,... C..tl.            Office of Inspector General
       1Io.n! M ....            26 Federal Plaza - Room 3900
                                New York, New York 10278

                                       Re:      Review of La P eninsula Community Organization
                                              Report Number : A-02-09-02012

            Dear Mr. Edert:

            In acco~ance with your request, La Peninsula's response to the results ofHmite<! scope
            review is as follow:

                                       FINANCIAL MANAGEMENT SYSTEM


            OBJECTIVE
            To detenninc the adequacy of the financial management system

             CONDITION

              l. Fu n~ Transfer

             La Penn improperly used Head Start funds to pay non Federal expenditures. We found
             one fund transfer ofS351 ,853 made from the Head Start account to pay off a lien
             applicable to the construction of a new Head Start facility. La Penn included this amount
             as part of the mortgage ofS3 .6 mill ion acqui.rocI from thc bank for the new Head Start
             facility . .La Penn plans on billing rental costs to the Head Start program and other
             programs that utilize its classrooms to pay the mortgage.
                                                                                                 Page 20f 6




Agency Response

The agency transferred the amount to settle an outstanding lien on the property finance
with federal fund. The amount was disapproved by the NYC Agency for Children's
Services. The amount has already been repaid through monthly reimbursement deduction.

2. No Recognition of Account Paya ble for Un paid Expenses

La Pen had outstanding obligations indicated on its expense accounts (e.g. telephone. 

utilities, and supplies) that were not recognized as accounts payable in ils general ledger. 

As a result, La Pen' s stated financial position is inaccurate. 

Our review of several expense accounts (e.g. telephone, utility, health supplies and renta! 

equipment) showed that La Penn had outstanding obl igations which were not recognized 

as an accounts payable in the general ledger. 


Agency Res ponse 


The agency pays vendor' s invoice as they become due. However. there were invoices for 

the fiscal year ended January 31 , 2008 that were identified as accounts payable in the 

audit report but paid subsequently. The agency has implemented control procedures to 

identify end of the year accounts payable and record such payable in the general ledger. 


3. Acco unting Records Were Not Properly Reconciled

La Penn maintains a separate bank account fo r payroll but does not reconcile the account
balance to its general ledger. Also, La Penn does not reconcile its payroll tax liabil ity as
reported on its quarterly 94 1 form to its general ledger. Finally, La Penn docs not
reconcile their drawdowns from the Department of Health and Human Services, Payment
Management System to its general ledger. We attempted to reconcile the payroll
account, payroll taxes and drnwdowns to the general ledger without success.

Agency Response

The agency has been utilizing unstable fiscal consultants for the past two years until the
new comptroller was hired recently. The bank account for payroll was not reconciled by
these temporally fiscal consultants. The agency is now analyzing and reconciling the
bank account for payroll.

The payroll tax liabilities as reported on the quarterly Form 941 were not reconciled to
the general ledger due to unstable fiscal consultan ts. The agency has implemented control
procedures for reconciling biweekly payroll to the general ledger and by reconciling the
quarterly tax liabilities to the amount reported on the general ledger.

The agency recorded every drawdown received from the Department of Health and
Human Services via the Payment Management System to its account receivable. The
detailed transaction of recorded drawdown was provided to the auditor.
                                                                                              Page 30f6




4. No Correcti ve Ac tions For Prior Year Findings

La Penn did not take appropriate action to correct a finding reported in the FY 2007 and
FY 2008 financial statement reviews. The finding was that La Penn did not pay its
obligations within 90 days as required by 45 CFR 74.71(b), We found that La Penn did
not correct this issue during FY 2009. For example, La Penn still has an unpaid balance
of513,424 for the legal services incurred during September 2007 through Sept. 2008.
The second finding was for La Penn to adopt the appropriate budgetary control measures
over its expenditures. Again, th is issue was not corrected during FY 2009. We prepared
a budget vs. actual expenditure variance report for FY 2009 ACF fund and found that La
Pen had incurred $47,742 in excess expenses over its FY 2009 budget.

Age ncy Res ponse

The agency has mai ntained paying its obligations within 90 days except in one
extenuating circumstances in which the grantor declined to use current PY 13 Foocral
fund to pay 513,424 oflegal services from prior year. This amount was paid with
sponsoring fund in 2009.

The agency has been utilizing unstable fiscal consultants for the past two years un til the
new comptroller was hired recently. The agency reported $47,741 .62 in excess on the SF
269. However, 532,890.66 was reclassified 10 the UKP program. The agency is now
preparing budget vs. actual expenses on a mon thly basis as a measuring control over its
expenses.

5. Inacc ura te S F-269 Report

The Federal share ofnel outlays (drawdowns) reported on the FY 2009 SF-269 Financial
Status Report ($1,395,943) could not be supported. We could not reconcile net outlays to
the supporting documentation. Also, we could not verify whether Federal funds received
were used to pay the expenses eannarked in the request for the Payment Management
System (PMS) drawdowns. For example, we were unable to identify any payments for
the cxpenscs that La Penn cannarkcd for PMS drawdown on Jan. 29 and 31, 2008.

Agency Response

The amount reported on the cumulative column of the SF-269 reflected the amount from
the agency Profit and Loss statement. This amount was accurately reported on the SF­
269. The rcference amount of$1 ,395,943 was the amount previously reported before the
final SF-269 was submitted and was shown under the column for "Previously Reported."

The agency ascertained that Federal funds received were used 10 pay expenses eannarked
in the request for the Paymenl Management System (PMS) drawdown. The agcncy was
unable to identify any drawdown for Jan 29 and 31, 2008 as indicated.
                                                                                                            Page4of6




6. Findings Reported on FY 2009 A-B3 Single Audit l

The Public Accountants, who conducted La Penn's FY 2009 audit, provided a draft
report with 8 qualified opinion on their OMS Circular A-133 Single Audit. According to
the accountant's schedule of fi ndings and questioned cost, they identified 13 significant
deficiencies of which II are material weaknesses. For example, the accountan ts found:

   • 	 that cash transactions were not completely recorded;
   • 	 the organization issued checks more than the actual balances they have on the
       bank, putting the organization at risk of incurring penalties;
   • 	 cash transactions involving payments through cash accounts were not recorded in
       books of accounts;
   • 	 Accuracy of records, books of accou nt should agree with monthly expense 

       reports; 

   • 	 Accounts payables were not properly monitored; and
   • 	 Prior period findings such as the organization paying its obligations in 90days
        were not implemented.

AGENCV RESPONSE

The agency req uest that this infonnation should be deleted from your report. During the
pre-exist conference, nine (9) of the thirteen (13) significant deficicncies will be deleted
after the agency provided the appropriate documentation. Two additional docu mentations
have been provided and the auditor has revisited the agency to complete the audit.


                             ABLITY TO CARRY MORTGAGE

OBJECTIVE
To dctennine if La Penn is able to carry the mortgage debt service upon conversion of
their construction loan to a pennanent mortgage.

CONDITION

1. 	 Liquidity Anal ysis

We perfonned a liquidity analysis that reflects the relationship of current assets to current
liabilities to detennine La Pen's ability to pay its current obligations. To be fiscall y
sound, the rule of thumb for the current assets over current liability is 2 to I. However,
our analysis for FY 09 indicated that La Pen's current ratio is 0.91 and its working capital
is negative (current assets ofSI ,913,764 were less than total current liabilities of
$2,112,449). Consequently, it is our opinion that La Penn is in a difficult position of
meeting its short-tenn debt.

IWe reviewed La Penn's audiTed fmandal staTeme nTS for FYs 2007 and 2008; La Pen's FY 2009 financial
S1a1emen1S were nol finalized during our fieldwork. The FY 2009 draft fmancial Slalemenl included a draft
OMB Circular A-I33 Single Audil Report.
                                                                                                                 Page 50f6




Agency Response

Al though the agency has been strugglin g to meet its obligations for various reasons, we
are uncertain as to the validity of the information used to obtain the ratio. We were told
that the information came from the Public Accountant's Draft report which is still
questionable and will be revised.

2. Stability Analys is

We performed the stability analysis that reflects the relationship oftOlal debt and total
assets to determine La Pen's financial strength. Generally, lower is safer. However, our
analysis shows that for FY 09, 99 percent of La Pen's operation is financed through debt.
La Pen's total debt was $5,323,783 as compared to total assets of$5,393,551.
Consequently, it is our opinion that La Penn could not handle a long term debt based on
its current financial position.

Agency Response

Although the agency has been struggling to meet its obligations for various reasons, we
are uncertain as to the validity of the information used during the analysis. We were told
that the information came from the Public Accountant's Draft. report which is still
questionable and will be revised.




3. Feasibility of La Penn's Carrying a Long-Term Mortgage Debt

One of the bank requirements to approve th e mortgage is for La Pen to meet the Debt
Service Coverage ratio (OSCR)? La Pen should maintain a minimum DSCR at all times
of not less than 1.3 to I. However, our overall analysis of La Penn supports our opinion
thaI La Penn can not carry the debt service upon conversion of their construction loan to a
pennanen! mortgage unless the Federal Government is willing to provide additional
funding.


Agency Respon se

Although the agency has been struggling to meet its obligations for various reasons, we
are uncertain as 10 the validity of the information used during the overall analysis. The


'The tenn "'Debt Service Coverage Ratio" shan mean (a) the sum of Mortgagor's after-tax net income, 

depreciation ll1KI amortization, and an y other cash CJlpenses and non-cash eJlpenses. and interest expense, 

divided by (b) !he sum of Mortgagor's interest expenses and any scheduled principal amonizat ion (the 

" Debt Service"), the calculation of which shall be detennined in accordance with generally acceptable 

accounting principles, consistemly applied. 

                                                                                         Page 60f6




agency will be able to carry the debt service upon conversion of the construction loan
through rental charges to various programs.


                           LA PENN'S BOND INSURANCE


OBJECTIVE:

To detennine if La Penn is properly bonded.

CONDITION:

La Penn submitted a bond application for coverage of fiscal personnel in November
2008. The coverage is called Crime Protection Plus Declarations through the
Philadelphia Insurance Company and covers the period November 25, 2008 through
November 25, 2009. Under this plan, La Penn fiscal personnel have the following
coverage:

        Employee Theft & Client Coverage             $100,000
        ERISA Fidelity                                100,000
        Forgery or Alteration                          50,000
        Inside the Premises                            50,000
        Computer Fraud & Funds Transfer Fraud          50,000

La Pen will clarify with ACF ifits bond policy has the right coverage as required.


Agency Response 


The agency has no comment in regard to the infonnation provided. 


Please contact the undersigned for any concern. 


Sincerely, 



  M5?1 2 3
Muffy Oluwo, PhD, CPA
                                   

Controller

cc:     Renee Sutton - Executive Director
